APPENDIX

TABLE OF APPENDICES
Appendix A
Order of the United States Court of Appeals
for the Eleventh Circuit Dismissing Appeal
as Moot and Denying Vacatur, Alabama v.
Ala. State Conf. of the NAACP, No. 17-14443
(May 14, 2020) ................................................. 1a
Appendix B
Opinion of the United States Court of
Appeals for the Eleventh Circuit, Alabama v.
Ala. State Conf. of the NAACP, No. 17-14443
(Feb. 3, 2020)................................................... 5a
Appendix C
Memorandum Opinion & Order of the United
States District Court for the Middle District
of Alabama, Ala. State Conf. of the NAACP v.
Alabama, No. 2:16-CV-731-WKW (Aug. 31,
2017) ................................................................ 38a
Appendix D
Order of the United States Court of Appeals
for the Eleventh Circuit Denying Petition for
Rehearing En Banc, Alabama v. Ala. State
Conf. of the NAACP, No. 17-14443 (Oct. 29,
2020) ................................................................ 63a
Appendix E
Constitutional and Statutory Provisions
Involved ........................................................... 65a
U.S. CONST. amend. XI .............................. 65a

ii
52 U.S.C. §10301 ....................................... 65a
52 U.S.C. §10302 ....................................... 66a

1a
Appendix A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________________________
No. 17-14443-CC
_________________________
ALABAMA STATE CONFERENCE OF THE
NATIONAL ASSOCIATION FOR THE
ADVANCEMENT OF COLORED PEOPLE,
SHERMAN NORFLEET,
CLARENCE MUHAMMAD,
CURTIS TRAVIS,
JOHN HARRIS,
Plaintiffs-Appellees,
versus
STATE OF ALABAMA,
SECRETARY OF STATE FOR THE STATE OF
ALABAMA,
Defendants-Appellants.
__________________________
On Appeal from the United States
District Court for the Middle District of Alabama
__________________________

2a
BEFORE: WILSON and BRANCH, Circuit Judges,
and VINSON,* District Judge.
BY THE COURT:
Before the Court is Appellants’ “Motion to Vacate
Decision and Dismiss Appeal as Moot.” The motion is
GRANTED, IN PART, to the extent the appeal is
DISMISSED as moot. The motion is DENIED, IN
PART, to the extent Appellants seek vacatur of the
Court’s February 3, 2020 opinion.
BRANCH, Circuit Judge, concurring in part and
dissenting in part:
I agree that that we should grant Appellants’
motion to dismiss the appeal as moot. But I would also
grant the motion to the extent it seeks to have us
vacate our February 3, 2020 opinion.
The purpose of vacatur is to vacate an opinion
when a case becomes moot pending appeal in order to
“prevent a judgment, unreviewable because of
mootness, from spawning any legal consequences.”
United States v. Munsingwear, Inc., 340 U.S. 36, 41,
71 S.Ct. 104, 95 L.Ed. 36 (1950). Therefore, the
Supreme Court’s “ordinary practice in disposing of a
case that has become moot on appeal is to vacate the
judgment with directions to dismiss.” New York State
Rifle & Pistol Ass'n, Inc. v. City of New York, New
York, No. 18–280, 590 U.S. ____ (2020) (quoting Lewis

*
Honorable C. Roger Vinson, Senior United States District
Judge for the Northern District of Florida, sitting by
designation.

3a
v. Continental Bank Corp., 494 U. S. 472, 482–483
(1990)).
As this case is now moot, three factors weigh in
favor of vacating our prior opinion. First, not vacating
the panel opinion would spawn immense legal
consequences for Florida, Georgia, and Alabama
because they have no state sovereign immunity for
any suit brought under Section 2 of the Voting Rights
Act. See Munsingwear, 340 U.S. at 39–41; see also
Democratic Exec. Comm. of Fla. v. Nat'l Republican
Senatorial Comm., 950 F.3d 790, 795 (11th Cir. 2020)
(declining to vacate a prior stay-panel opinion
because it could not spawn binding legal
consequences regarding the merits of the case); see
also Hand v. Desantis, 946 F.3d 1272, 1275 n.5 (11th
Cir. 2020) (same).
Second, if we do not vacate our opinion, Alabama
is treated as if there has been a review when, as it
stands, it cannot seek an en banc review or file a
petition for certiorari. See Camreta v. Greene, 563 U.S.
692, 712 (2011) (reaffirming that the purpose of
vacatur is to ensure that “those who have been
prevented from obtaining the review to which they
are entitled [are] not … treated as if there had been a
review”).
And, third, the constitutional ruling in this case—
abrogation of state sovereign immunity—is certainly
a legally consequential decision. Id. at 713. (noting
that vacatur of the Ninth Circuit’s constitutional
rulings was warranted because a “constitutional

4a
ruling in a qualified immunity case is a legally
consequential decision.”).

5a
Appendix B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 17-14443
________________________
D.C. Docket No. 2:16-cv-00731-WKW-CSC
ALABAMA STATE CONFERENCE OF THE
NATIONAL ASSOCIATION FOR THE
ADVANCEMENT OF COLORED PEOPLE,
SHERMAN NORFLEET, CLARENCE
MUHAMMAD, CURTIS TRAVIS, JOHN HARRIS,
Plaintiffs-Appellees,
versus
STATE OF ALABAMA,
SECRETARY OF STATE FOR THE STATE OF
ALABAMA,
Defendants-Appellants.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
(February 3, 2020)

6a
Before WILSON and BRANCH, Circuit Judges, and
VINSON,* District Judge.
WILSON, Circuit Judge:
The Voting Rights Act (VRA) is widely considered
to be among the most effective civil rights statutes
ever passed by Congress.1 Its success is largely due to
the work of private litigants. For more than fifty
years, private parties have sued states and localities
under the VRA to enforce the substantive guarantees
of the Civil War Amendments. Today, private parties
remain the primary enforcers of § 2 of the VRA,2
which prohibits states from imposing election
practices that result in racial discrimination. In this
appeal, Alabama argues that states are immune from
these suits. The district court—like every circuit to
decide this question—rejected that argument, holding
* Honorable C. Roger Vinson, Senior United States District
Judge for the Northern District of Florida, sitting by
designation.
1 Before the VRA, litigators seeking to stem discriminatory
practices in voting typically had to challenge those practices
under the Fourteenth and Fifteenth Amendments. This method
of case-by-case litigation was ineffective in most jurisdictions
given many states’ resistance to change. Eventually, Congress
recognized that it needed a more robust regime to fulfill the
guarantees of the Civil War Amendments. The VRA was the
solution, achieving unprecedented success in minority voter
registration and turnout.
2 The Department of Justice has filed only 4 of the 61
enforcement actions under § 2 since 2013. See U.S. Civil Rights
Commission, An Assessment of Minority Voting Rights Access in
the United States 10 (2018).

7a
that Congress abrogated state sovereign immunity in
the VRA. After careful review of the statutory text,
and with the benefit of oral argument, we affirm.
I.
We review issues of federal subject matter
jurisdiction and sovereign immunity de novo. Summit
Med. Assocs., P.C. v. Pryor, 180 F.3d 1326, 1333–34
(11th Cir. 1999). A district court’s denial of a motion
to dismiss on sovereign immunity grounds is
immediately appealable. Id. at 1334. We therefore
have jurisdiction to resolve Alabama’s sovereign
immunity claim in this interlocutory appeal.3
The Eleventh Amendment, as interpreted by the
Supreme Court, generally prohibits suits against a
state by its own citizens in federal court. See Hans v.
Louisiana, 134 U.S. 1, 10–15 (1890). But state
sovereign immunity is not absolute. In Fitzpatrick v.
Bitzer, 427 U.S. 445 (1976), the Supreme Court
explained that Congress can abrogate state sovereign
immunity pursuant to its Fourteenth Amendment
enforcement powers to redress discriminatory state
action. Recognizing that the Civil War Amendments
intentionally changed the balance of power between
the federal government and the States, the Court
affirmed that those amendments permitted Congress
3 The Appellees suggest that the issue of whether Alabama
has sovereign immunity from suit is moot because the trial on
the underlying § 2 claim is over. After supplemental briefing on
this issue, we disagree. The trial may be over, but Alabama must
defend itself in ongoing post-trial proceedings. Alabama thus
faces a harm that we can redress.

8a
to intrude “into the judicial, executive, and legislative
spheres of autonomy previously reserved to the
States.” Id. at 455.
To determine whether Congress abrogated state
sovereign immunity, we ask whether Congress (1)
expressed its unequivocal intent to do so and (2) acted
“pursuant to a valid grant of constitutional
authority.” Bd. of Trs. of Univ. of Ala. v. Garrett, 531
U.S. 356, 363 (2001) (internal quotation marks
omitted).
II.
Under the first prong, Congress must make its
intention
to
abrogate
sovereign
immunity
“unmistakably clear in the language of the statute.”
Atascadero State Hosp. v. Scanlon, 473 U.S. 234, 242
(1985). The expression of Congress’s intent must be
textual; legislative history is not proper evidence of
abrogation. Dellmuth v. Muth, 491 U.S. 223, 230
(1989). But an express abrogation clause is not
required. Instead, a court may look to the entire
statute, and its amendments, to determine whether
Congress clearly abrogated sovereign immunity. See
Kimel v. Fla. Bd. of Regents, 528 U.S. 62, 76 (2000)
(“[O]ur cases have never required that Congress make
its clear statement in a single section or in statutory
provisions enacted at the same time.”); Seminole
Tribe of Fla. v. Florida, 517 U.S. 44 (1996) (reading
the Indian Gaming Regulatory Act (IGRA) as a whole
and concluding that Congress’s intent to abrogate was
unmistakably clear, although ultimately holding that

9a
Congress had not acted pursuant to a valid grant of
authority).
The Supreme Court’s cases addressing abrogation
are instructive here. In Atascadero, the Court held
that the Rehabilitation Act of 1973—which provided
remedies against “any recipient of Federal assistance”
but did not explicitly refer to the States—contained
only a general authorization for suit in federal court
and was “not the kind of unequivocal statutory
language sufficient to abrogate the Eleventh
Amendment.” 473 U.S. at 245–46. The Court
concluded that, given the States’
unique
constitutional role, “[w]hen Congress chooses to
subject the States to federal jurisdiction, it must do so
specifically.” Id. at 246 (emphasis added). Likewise,
in Welch v. Texas, the Court held that the Jones Act,
which extended remedies to “any seaman who shall
suffer personal injury in the course of his
employment,” contained only a general authorization
for suit and lacked an expression of congressional
intent to abrogate sovereign immunity. 483 U.S. 468,
475–76 (1987) (alteration accepted) (emphasis
omitted).
Similarly, the Court in Dellmuth acknowledged
that the references to the States in the Education of
the Handicapped Act (EHA) made them “logical
defendants” under the Act, but held that such a
“permissible inference” did not amount to an
unequivocal declaration abrogating sovereign
immunity. 491 U.S. at 232. In particular, the Court
explained that the EHA’s judicial review provision

10a
allowed aggrieved parties to “bring a civil action . . .
in any State court of competent jurisdiction or in a
district court of the United States,” but did not
indicate that the States were subject to suit. Id. at
228, 231.
In contrast, the Court in Kimel held that the Age
Discrimination in Employment Act (ADEA) made
Congress’s intent to abrogate state sovereign
immunity unmistakably clear. 528 U.S. at 67–68. The
Court relied on the ADEA’s language that an
individual may bring a civil action “against any
employer (including a public agency)” and that a
“public agency” includes “the government of a State or
political subdivision thereof.” Id.; see also Nev. Dep’t
of Human Res. v. Hibbs, 538 U.S. 721, 726 (2003)
(holding that Congress made clear its intent to
abrogate sovereign immunity in the Family Medical
Leave Act (FMLA) by using similar language).
And, finally, in Seminole Tribe, the Court held
that Congress clearly expressed its intent to abrogate
state sovereign immunity in the IGRA. 517 U.S. at 57.
The Court noted that the IGRA gives the United
States district courts “jurisdiction over . . . any cause
of action initiated by an Indian tribe arising from the
failure of a State to enter into negotiations with the
Indian tribe” and provides a detailed remedial scheme
for such a failure. Id. at 49–50. For example, the IGRA
states that the burden of proof shifts to the State if a
suing tribe meets its burden of proof, and it provides
guidance for the State and the tribe to submit claims
to mediation if a compact cannot be reached. Id. at 50.

11a
Thus, the Court concluded that “the numerous
references to the ‘State’ in the text of the [IGRA]
ma[d]e it indubitable that Congress intended . . . to
abrogate the States’ sovereign immunity from suit.”
Id. at 57.
With that background, we turn to the text of the
VRA. Section 2 of the VRA, as amended over the
years, prohibits “any State or political subdivision”
from imposing any “voting qualification or
prerequisite to voting or standard, practice, or
procedure” that “results in a denial or abridgement of
the right of any citizen of the United States to vote on
account of race.” 52 U.S.C. § 10301(a). Section 3 of the
VRA provides the general enforcement mechanisms of
the Act. See 52 U.S.C. § 10302. Originally, § 3 gave
enforcement authority only to the Attorney General of
the United States. Shortly after it was passed, the
Supreme Court recognized an implied private right of
action in the VRA consistent with the purposes of the
Act. See Allen v. State Bd. of Elections, 393 U.S. 544,
549 (1969). Congress then amended § 3 in 1975 to
make what was once implied now explicit: private
parties can sue to enforce the VRA. Section 3, entitled
“Proceeding to enforce the right to vote,” now sets
forth the appropriate judicial procedures for
whenever “the Attorney General or an aggrieved
person” institutes a proceeding “to enforce the voting
guarantees of the [F]ourteenth and [F]ifteenth
[A]mendment in any State or political subdivision.”
52 U.S.C. § 10302(a), (b), and (c).

12a
Against this backdrop, both the Fifth and Sixth
Circuits—the only other circuits that have considered
this issue—held that Congress validly abrogated
state sovereignty in the VRA. See Mixon v. Ohio, 193
F.3d 389, 398–99 (6th Cir. 1999) (holding that
Congress intended to abrogate the States’ sovereign
immunity under the VRA because it “specifically
prohibits ‘any State or political subdivision’ from
discriminating against voters on the basis of race”);
OCA-Greater Hous. v. Texas, 867 F.3d 604, 614 (5th
Cir. 2017) (holding that the VRA validly abrogated
state sovereign immunity and citing to Mixon).
Similarly, two separate panels of three-judge district
courts, each hearing claims under the VRA, reached
the same conclusion. See Ga. State Conference of
NAACP v. State, 269 F. Supp. 3d 1266, 1274-75 (N.D.
Ga. 2017) (holding that § 2 of the VRA “‘unequivocally
expresses’ an intent to abrogate state sovereign
immunity,” as it “specifically forbids ‘any State or
political subdivision’ from discriminating against
voters” based on race (alteration accepted)); Reaves v.
U.S. Dep’t of Justice, 355 F. Supp. 2d 510, 515-16
(D.D.C. 2005) (per curiam) (describing South
Carolina’s assertion of sovereign immunity under the
VRA as “without merit”).
Today we agree with both of our sister circuits and
the district court in this case, which concluded that it
was “difficult to conceive of any reasonable
interpretation of Section 2 that does not involve
abrogation of the state’s immunity.” The VRA, as
amended, clearly expresses an intent to allow private
parties to sue the States. The language of § 2 and § 3,

13a
read together, imposes direct liability on States for
discrimination in voting and explicitly provides
remedies to private parties to address violations
under the statute. Unlike the general authorizations
in the statutes at issue in Atascadero and Welch, § 2
specifically forbids “any State” from imposing a
practice that would deny any citizen the right to vote
on account of race. 52 U.S.C. § 10301 (emphasis
added); see Atascadero, 473 U.S. at 246; Welch, 483
U.S. at 476. And § 3 repeatedly refers to proceedings
initiated by “the Attorney General or an aggrieved
person” to enforce § 2 or other provisions of the VRA.
52 U.S.C. § 10302(a), (b), and (c). Thus, read as a
whole, the VRA makes it clear that Congress intended
to permit “aggrieved person[s]” to bring proceedings
against “any State or political subdivision.”4 Indeed,
like the statute at issue in Seminole Tribe, the VRA is
a carefully designed remedial statute—one that is
predicated upon suits against States. See 517 U.S. at
4 The dissent states that our interpretation places too much
emphasis on the VRA’s mention of the word “State” and ignores
Seminole Tribe’s instruction to look at the entirety of the
language of the statute. See Dissenting Op. at 6–7. Yet as stated
above, our interpretation is based on reading the statute as a
whole, rather than reading § 2 and § 3 in isolation from one
another. Specifically, it is the VRA’s clear and textual
prohibition against certain conduct by “any State or political
subdivision,” combined with its repeated reference to
proceedings instituted by “the Attorney General or an aggrieved
person” that makes it “both unequivocal and textual” that
Congress intended to abrogate state sovereign immunity and
permit aggrieved persons to institute proceedings against any
State that violates § 2 of the VRA.

14a
57. It is implausible that Congress designed a statute
that primarily prohibits certain state conduct, made
that statute enforceable by private parties, but did
not intend for private parties to be able to sue States.
As the Supreme Court explained years after
Congress amended the VRA to allow private rights of
action, Congress “recognized that private rights of
action” were available under the VRA when it
“reenacted and extended the life of the Voting Rights
Act in 1975.” Morse v Republican Party of Va., 517
U.S. 186, 233 (1996).5 In line with this understanding,
private parties have sued States and state officials
under § 2 of the VRA for decades. See, e.g., Chisom v.
Roemer, 501 U.S. 380 (1991) (a private challenge
under § 2 against the Governor and other state
officials); Ala. Legislative Black Caucus v. Alabama,
135 S. Ct. 1257 (2015) (a private challenge under § 2
against the State of Alabama).
The dissent suggests that the VRA’s use of
compound phrases to prohibit the conduct of both a
“State or political subdivision” and to permit
proceedings by both “the Attorney General or an
5 Justice Stevens’s opinion for the court, Justice Breyer’s
concurring opinion, and Justice Thomas’s dissenting opinion in
Morse all recognized that the amended § 3 gave a right of action
to private parties. Morse, 517 U.S. at 233; see also id. at 240
(Breyer, J., concurring) (recognizing that, through the amended
§ 3, Congress gave “a private right of action to enforce § 10 [of
the VRA], no less than it did to enforce §§ 2 and 5”); id. at 289
(Thomas, J., dissenting) (“As appellants accurately state, § 3
explicitly recognizes that private individuals can sue under the
Act.” (alteration accepted) (internal quotation marks omitted)).

15a
aggrieved person” makes Congress’s intent to
abrogate state sovereign immunity unclear.
Dissenting Op. at 11. That is simply not true based on
the language of the statute, which clearly indicates
that both the Attorney General and aggrieved persons
may institute proceedings against a State or a
political subdivision. The dissent cites Dellmuth in
support of its position that the “aggrieved person”
language, alone, is insufficient to abrogate sovereign
immunity. Id. at 11–12. But the “aggrieved parties”
language in Dellmuth appeared in an enforcement
provision that merely stated that parties could bring
suit in State court or in a United States district court.
Dellmuth, 491 U.S. at 231. In contrast, § 2 of the VRA
specifically applies to “any State or political
subdivision,” and the enforcement provision then
refers to suits to enforce the statute by aggrieved
persons. Moreover, the dissent does not dispute that
the VRA subjects the States to suit; rather, it argues
that the States are only subject to suits by the
Attorney General, and aggrieved persons may only
sue a political subdivision—an interpretation that
takes at least one too many creative leaps from the
text of the statute. Dissenting Op. at 8, 11–12.
Alabama’s arguments to the contrary are equally
unpersuasive. Alabama first argues that § 3’s
language allowing private parties to seek a remedy in
“a proceeding under any statute to enforce the voting
guarantees of the [F]ourteenth or [F]ifteenth
[A]mendment” does not include suits brought under
the VRA. Alabama argues this 1975 amendment to
the VRA is best read to apply to other federal statutes

16a
that might seek to enforce the voting guarantees of
the Fourteenth and Fifteenth Amendments, but not
those suits seeking to enforce the VRA itself.6 This
reading is contrary to both the text of the statute and
Supreme Court precedent. See Morse, 517 U.S. at 233
(explaining that the 1975 amendments to the VRA
recognized that private rights of action were available
to enforce the VRA); see also id. at 289 (Thomas, J.,
dissenting) (“As appellants accurately state, § 3
explicitly recognizes that private individuals can sue
under the [Act].” (emphasis added) (internal quotation
marks omitted)).
Alabama also argues that interpreting the VRA to
preclude abrogation of sovereign immunity would not
render the statute meaningless because private
parties could still sue local governments under the
Act. This is true. But the same thing could be said of
many statutes in which the Supreme Court found that
Congress clearly intended to abrogate immunity.
Both the FMLA and the ADEA—the statutes at issue
in Hibbs and Kimel—permitted private parties to sue
6 Alabama argues that Congress would have said that suits
can be brought under “this statute” instead of “any statute” if it
intended to provide a private right of action under the VRA. But
the VRA is, by definition, “any” such statute—it is designed to
enforce the voting guarantees of the Fourteenth and Fifteenth
Amendments. See United States v. Bd. of Comm’rs of Sheffield,
Ala., 435 U.S. 110, 126–27 (1978) (explaining that the VRA was
designed to implement the guarantees of both amendments);
United States v. Marengo Cty. Comm’n, 731 F.2d 1546, 1550
(11th Cir. 1984) (holding that “Section 2 [of the VRA] is a
constitutional exercise of congressional enforcement power
under the Fourteenth and Fifteenth Amendments”).

17a
local governments in addition to States, and thus both
statutes would have remained operative even without
a finding of abrogation.
We do not read any of the Supreme Court’s
precedent, or our own, to require that a statute be
utterly meaningless without a finding of abrogation
before a court can find congressional intent to
abrogate immunity. We instead ask whether the
statute’s text makes clear that Congress intended to
subject States to liability by private parties. The
answer here is unmistakably yes.
III.
In order to abrogate state sovereign immunity,
Congress must also act pursuant to a valid grant of
power. See Garrett, 531 U.S. at 363. While Congress
may not abrogate a State’s immunity when acting
pursuant to its Article I powers, it may do so under its
enforcement powers pursuant to § 5 of the Fourteenth
Amendment. See id. at 364; see also Fitzpatrick, 427
U.S. at 456 (“[T]he Eleventh Amendment, and the
principle of state sovereignty which it embodies . . .
are necessarily limited by the enforcement provisions
of § 5 of the Fourteenth Amendment.”). The Supreme
Court has never considered whether Congress may
abrogate state sovereign immunity using its Fifteenth
Amendment enforcement powers.
The VRA was designed “to implement the
Fifteenth Amendment and, in some respects, the
Fourteenth Amendment.” Bd. of Comm’rs of Sheffield,
435 U.S. at 126–27; see also Marengo, 731 F.2d at
1556 (“Congress [in enacting Section 2] . . . relied not

18a
on any independent power to interpret the
Constitution but rather on congressional power to
enforce the Civil War Amendments.”). As the
Supreme Court has repeatedly recognized, the Civil
War Amendments allow Congress to intrude “into the
judicial, executive, and legislative spheres of
autonomy previously reserved to the States.”
Fitzpatrick, 427 U.S. at 455; see also City of Rome v.
United States, 446 U.S. 156, 179 (1980) (explaining
that the Civil War Amendments “were specifically
designed as an expansion of federal power and an
intrusion on state sovereignty”), abrogated on other
grounds by Shelby Cty., Ala. v. Holder, 570 U.S. 529
(2013). Given this design, “principles of federalism
that might otherwise be an obstacle to congressional
authority are necessarily overridden by the power to
enforce the Civil War Amendments ‘by appropriate
legislation.’” City of Rome, 446 U.S. at 179.
Both § 5 of the Fourteenth Amendment and § 2 of
the Fifteenth Amendment, using identical language,
authorize Congress to enforce their respective
provisions by appropriate legislation. The Supreme
Court has often referred to these enforcement
provisions in tandem, describing them as “parallel”
powers to enforce the Civil Rights Amendments. See,
e.g., City of Boerne v. Flores, 521 U.S. 507, 518 (1997).
We agree with the Fifth and Sixth Circuits that if § 5
of the Fourteenth Amendment permits Congress to
abrogate state sovereign immunity, so too must § 2 of
the Fifteenth Amendment. See Mixon, 193 F.3d at
399; OCA-Greater Houston, 867 F.3d at 614. The
nature of the Civil War Amendments as an

19a
intentional intrusion on state sovereignty and the
identical enforcement provisions of both Amendments
allow for no other conclusion.
By design, the VRA was intended to intrude on
state sovereignty to eradicate state-sponsored racial
discrimination in voting.7 Because the Fifteenth
Amendment permits this intrusion, Alabama is not
immune from suit under § 2 of the VRA. Nor is § 2 any
great indignity to the State. Indeed, “it is a small
thing and not a great intrusion into state autonomy
to require the [S]tates to live up to their obligation to
avoid discriminatory practices in the election
process.” Marengo, 731 F.2d at 1561.
AFFIRMED.

7 In this appeal, Alabama suggests that we should reconsider
the constitutionality of § 2. But § 2’s constitutionality has been
conclusively resolved in precedent binding on this Court. See
Miss. Republican Exec. Comm. v. Brooks, 469 U.S. 1002 (1984)
(summarily affirming a district court panel’s holding that the
amended § 2 is a valid exercise of congressional power);
Marengo, 731 F.2d at 1550 (“We now hold that . . . amended
section 2 is a constitutional exercise of congressional
enforcement power under the Fourteenth and Fifteenth
Amendments.”). Fifteen years later, and post-City of Boerne, we
explained that any challenge to the constitutionality of § 2 is
“foreclosed” by Marengo. See Johnson v. Hamrick, 196 F.3d 1216,
1219 n.3 (11th Cir. 1999). Shelby County does not change this
analysis. We take Chief Justice Roberts at his word when he
explained that the Court’s decision in Shelby County “in no way
affects the permanent, nationwide ban on racial discrimination
in voting found in § 2.” 570 U.S. at 557.

20a
BRANCH, Circuit Judge, dissenting:
Because I find that Congress did not unequivocally
abrogate state sovereign immunity under Section 2 of
the Voting Rights Act (“VRA”), I respectfully dissent
from the majority opinion.
The Eleventh Amendment to the United States
Constitution provides: “The Judicial Power of the
United States shall not be construed to extend to any
suit in law or equity, commenced or prosecuted
against one of the United States by Citizens of
another State, or by Citizens or Subjects of any
Foreign State.” U.S. Const. amend. XI. By now, it is
well settled that “the Eleventh Amendment’s
ultimate guarantee is that nonconsenting states may
not be sued by private individuals in federal court.”
See McClendon v. Ga. Dep’t of Cmty. Health, 261 F.3d
1252, 1256 (11th Cir. 2001). “The Amendment not
only bars suits against a state by citizens of another
state, but also applies equally to suits against a state
initiated by that state’s own citizens.” Summit Med.
Assocs., P.C. v. Pryor, 180 F.3d 1326, 1336 (11th Cir.
1999) (citing Edelman v. Jordan, 415 U.S. 651, 663
(1974); Hans v. Louisiana, 134 U.S. 1, 13–15 (1890)).
The Supreme Court has nonetheless recognized
that Congress may abrogate state sovereign
immunity provided certain requirements are met.1
1
States may also be sued in federal court if they consent to
it in unequivocal terms. Green v. Mansour, 474 U.S. 64, 68 (1985)
(citing Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89,
99 (1984)). The State of Alabama notes that it has not consented
to this suit. The Alabama Constitution provides that “the State

21a
Determining whether Congress has validly abrogated
state sovereign immunity requires us to “resolve two
predicate questions: first, whether Congress
unequivocally expressed its intent to abrogate that
immunity; and second, if it did, whether Congress
acted pursuant to a valid grant of constitutional
authority.” Kimel v. Fla. Bd. of Regents, 528 U.S. 62,
73 (2000) (emphasis added).2
The Supreme Court has, time and again, repeated
the “simple but stringent test” we use to answer the
first question: “Congress may abrogate the States’
constitutionally secured immunity from suit in
federal court only by making its intention
unmistakably clear in the language of the statute.”
Dellmuth v. Muth, 491 U.S. 223, 228 (1989) (quoting
Atascadero State Hosp. v. Scanlon, 473 U.S. 234, 242
of Alabama shall never be made a defendant in any court of law
or equity,” Ala. Const. art. I, § 14, and this provision has been
interpreted by the Alabama Supreme Court to prohibit Alabama
from consenting to suit. Aland v. Graham, 250 So. 2d 677, 681
(Ala. 1971) (Section 14 “wholly withdraws from the Legislature,
or any other state authority, the power to give consent to a suit
against the state” (quoting Dunn Constr. Co. v. State Bd. of
Adjustment, 175 So. 3d 383, 386 (Ala. 1937))). The plaintiffs have
not argued that the State has consented, and the district court
did not reach this issue. Accordingly, it is not before us. The only
question we face is whether Congress has validly abrogated
Alabama’s sovereign immunity through Section 2 of the VRA.
2
In applying Kimel to this case, I ultimately find the answer
to Kimel’s first question to be “no.” Thus, I do not consider the
second predicate question posed by Kimel or the majority’s
analysis of “whether Congress acted pursuant to a valid grant of
constitutional authority.” Kimel, 528 U.S. at 73.

22a
(1985) (emphasis added)). This Circuit has taken
Dellmuth’s “clear statement rule” to heart: “[A]
federal statute will not be read to abrogate a state’s
sovereign immunity unless Congress has made its
intention to do so ‘unmistakably clear’ in the language
of the statute.” Cassady v. Hall, 892 F.3d 1150, 1153
(11th Cir. 2018) (citing Atascadero State Hosp. v.
Scanlon, 473 U.S. 234, 242 (1985).
Because Section 2 of the VRA is at issue in this
case, I begin with its text:
(a)
No
voting
qualification
or
prerequisite to voting or standard,
practice, or procedure shall be imposed
or applied by any State or political
subdivision in a manner which results in
a denial or abridgement of the right of
any citizen of the United States to vote
on account of race or color, or in
contravention of the guarantees set forth
in section 10303(f)(2) of this title, as
provided in subsection (b).
(b) A violation of subsection (a) is
established if, based on the totality of
circumstances, it is shown that the
political processes leading to nomination
or election in the State or political
subdivision are not equally open to
participation by members of a class of
citizens protected by subsection (a) in
that its members have less opportunity
than other members of the electorate to

23a
participate in the political process and to
elect representatives of their choice. The
extent to which members of a protected
class have been elected to office in the
State or political subdivision is one
circumstance which may be considered:
Provided, That nothing in this section
establishes a right to have members of a
protected class elected in numbers equal
to their proportion in the population.
52 U.S.C. § 10301(a)–(b).
The text of Section 2 is straightforward: It forbids
“any State or political subdivision” from imposing any
“voting qualification or prerequisite to voting or
standard, practice, or procedure . . . which results in
a denial or abridgement of the right of any citizen of
the United States to vote on account of race or color.”
Id. § 10301(a). But Section 2 does not include any
language that demonstrates unmistakably clear
congressional intent to abrogate state sovereign
immunity. It clearly contains no express reference to
either the Eleventh Amendment or state sovereign
immunity. Moreover, the text of Section 2 contains no
language whatsoever—either explicitly or by
implication—that allows private plaintiffs to sue a
State in federal court. See, e.g., Cassady, 892 F.3d at
1154 (a Georgia statute that “says nothing about the
federal courts . . . does not indicate that it waives the
State’s immunity in federal court”). Because
“evidence of congressional intent must be both
unequivocal and textual” in order to support a finding

24a
of abrogation, Dellmuth, 491 U.S. at 230 (emphasis
added), the absence of such language is fatal.
The majority is, of course, correct that Congress
need not use the words “abrogation” or “state
sovereign immunity.” See Dellmuth, 491 U.S. at 233
(Scalia, J., concurring) (noting that such express
language is not required). And the majority is correct
that the Supreme Court has found express abrogation
of state sovereign immunity in other federal statutes
when such clear language is not used. But Section 2’s
text is unlike the text of those other statutes. For
example, as noted by the majority, in Seminole Tribe
of Florida v. Florida, 517 U.S. 44 (1996), the Supreme
Court found that the Indian Gaming Regulatory Act
(“IGRA”) clearly abrogated state sovereign immunity
because the structure of the IGRA “authorize[d] a
tribe to bring suit in federal court against a State,” id.
at 47, and the statute provided an “unmistakably
clear” statement of intent that the State was to be a
defendant against suits filed under the statute:
Any conceivable doubt as to the identity
of the defendant in an action under [the
statute] is dispelled when one looks to
the various provisions of . . . the
remedial scheme available to a tribe that
files suit under [the statute]. Section
2710(d)(7)(B)(ii)(II) provides that if a
suing tribe meets its burden of proof,
then the “burden of proof shall be upon
the State . . .”; § 2710(d)(7)(B)(iii) states
that if the court “finds that the State has

25a
failed to negotiate in good faith . . ., the
court shall order the State . . .”;
§ 2710(d)(7)(B)(iv) provides that “the
State shall . . . submit to a mediator
appointed by the court” and subsection
(B)(v) of § 2710(d)(7) states that the
mediator “shall submit to the State.”
Sections 2710(d)(7)(B)(vi) and (vii) also
refer to the “State” in a context that
makes it clear that the State is the
defendant to the suit brought by an
Indian tribe under § 2710(d)(7)(A)(i). In
sum, we think that the numerous
references to the “State” in the text of
§ 2710(d)(7)(B) make it indubitable that
Congress intended through the Act to
abrogate the States’ sovereign immunity
from suit.
Id. at 56–57. The IGRA expressly abrogated state
sovereign
immunity
because
it
specifically
contemplated—that is, the language of the statute
explicitly provided for—the State as the defendant in
a federal suit brought under that statute. Seminole
Tribe, 517 U.S. at 57.3
3
The majority also cites to two other cases where the
Supreme Court has found express abrogation of state sovereign
immunity: Kimel, 528 U.S. 62 and Nevada Dep’t of Human
Resources v. Hibbs, 538 U.S. 721 (2003). But the statutes at issue
in Kimel and Hibbs are easily distinguishable from the text of
Section 2.

In Kimel, the Supreme Court considered the text of the Age
Discrimination in Employment Act of 1967 (ADEA), which made

26a
In contrast to the IGRA, the language of Section 2
does not demonstrate that “Congress intended
through the Act to abrogate the States’ sovereign
it unlawful for an employer—including a State—to discriminate
on the basis of age. 528 U.S. at 67. The ADEA contained a
provision that authorized “employees to maintain actions for
backpay ‘against any employer (including a public agency) in any
Federal or State court of competent jurisdiction. . . .’” Id. at 73–
74 (citations omitted). The ADEA further defined “public agency”
to include “the government of a State or political subdivision
thereof, and any agency of . . . a State, or a political subdivision
of a State.” Id. at 74. Thus, the Supreme Court concluded that
“the plain language of [the ADEA] clearly demonstrates
Congress’ intent to subject the States to suit for money damages
at the hands of individual employees.” Id.
Similarly, in Hibbs, the Supreme Court considered the text
of the Family and Medical Leave Act (“FMLA”), which: (1)
“enable[d] employees to seek damages ‘against any employer
(including a public agency) in any Federal or State court of
competent jurisdiction,’” and (2) defined “public agency” to
include “the government of a State or political subdivision thereof
and any agency of . . . a State, or a political subdivision of a
State.” 538 U.S. at 726 (citations omitted). By explicitly
authorizing individuals to sue the State, “[t]he clarity of
Congress’ intent [was] not fairly debatable.” Id. As such, the
FMLA “satisfied the clear statement rule of Dellmuth” in
abrogating state sovereign immunity. Id.
Section 2, however, lacks language that clearly identifies the
State as a proper defendant in a federal lawsuit brought by
private individuals. So, unlike the statutes considered in
Kimmel and Hibbs, Section 2 lacks “plain language” that “clearly
demonstrates Congress’ intent to subject the States to suit[.]”
Kimel, 528 U.S. at 74. Accordingly, Section 2 has not “satisfied
the clear statement rule of Dellmuth.” Hibbs, 538 U.S. at 726.

27a
immunity from suit.” Id. Section 2 contains no express
authorization enabling individuals to maintain such
an action in federal court against a State. Section 2
does not “refer to the ‘State’ in a context that makes
it clear that the State is the defendant to the suit
brought by” private plaintiffs in federal court. Id. Put
simply, Section 2 lacks any language that would
“make it indubitable that Congress intended through
the Act to abrogate the States’ sovereign immunity
from suit.” Id.; see also Atascadero, 473 U.S. at 243
(“[I]t is incumbent upon the federal courts to be
certain of Congress’ intent before finding that federal
law overrides the guarantees of the Eleventh
Amendment.”).
The majority incorrectly focuses on one point made
by the Court in Seminole Tribe in deciding that the
IGRA abrogated state sovereign immunity: “the
numerous references to the ‘State’ in the text of [the
statute].” Seminole Tribe, 517 U.S. at 57. In so doing,
however, the majority misses the broader point
articulated by Seminole Tribe: courts must look to the
entirety of the language of the statute. It is not
dispositive that the word “State” is mentioned, nor
that it is mentioned multiple times. In fact, the
Supreme Court rejected a similar argument in
Dellmuth, holding that although the statute in
question contained “frequent reference to the States”
and it could be inferred that the States were intended
to be subject to liability, “such a permissible inference,
whatever its logical force, would remain just that: a
permissible inference . . . [and was] not . . . the
unequivocal declaration which . . . is necessary before

28a
[a court] will determine that Congress intended to
exercise its powers of abrogation.” 491 U.S. at 232.
The majority finds abrogation because it is
“difficult to conceive of any reasonable interpretation
of Section 2 that does not involve abrogation of the
state’s immunity” and to find otherwise would make
Congress’s actions “implausible.” See Maj. Op. at 8.
By doing so, the majority rests on an erroneous
assumption that “a legislature never adopts half-way
measures, never attacks the easy part of the problem
without attacking the more sensitive part as well.”
Morse v. Republican Party of Virginia, 517 U.S. 186,
246 (1996) (Scalia, J., dissenting); see also Pennhurst
State Sch. & Hosp. v. Halderman, 465 U.S. 89, 123
(1984) (“[C]onsiderations of policy cannot override the
constitutional limitation on the authority of the
federal judiciary to adjudicate suits against a state”).4

4 In reality, “[s]tatutes rarely embrace every possible
measure that would further their general aims[.]” Return Mail,
Inc. v. U.S. Postal Serv., 139 S. Ct. 1853, 1867 n.11 (2019)
(holding that, “absent other contextual indicators of Congress’
intent to include the Government in a statutory provision
referring to a ‘person,’” the government is not a “person” capable
of instituting administrative review proceedings). It is not the
role of this Court “to engraft on a statute additions which we
think the legislature logically might or should have made.” Id.
(quoting United States v. Cooper Corp., 312 U.S. 600, 605 (1941)).
Interestingly, in Return Mail, the Supreme Court cited a statute
that very clearly provides “that States ‘shall not be immune . . .
from suit in Federal court by any person, including any
governmental or nongovernmental entity. . . .’” Id. at 1863 n.3
(citation omitted). While such language is not required, Return

29a
And, importantly, Section 2 prohibits conduct by a
party other than a State; it also prohibits conduct of a
“political subdivision.” 52 U.S.C. § 10301(a)–(b);
Black’s Law Dictionary 1197 (8th ed. 2004) (“A
division of a state that exists primarily to discharge
some function of local government”). Indeed, the
majority acknowledges that “interpreting the VRA to
preclude abrogation of sovereign immunity would not
render the statute meaningless because private
parties could still sue local governments under the
Act.” See Maj. Op. at 12. So—based on the text of
Section 2—it is entirely plausible that Congress
“made that statute enforceable by private parties, but
did not intend for private parties to be able to sue the
States.” See id. at 10.
To support its conclusion that Section 2 of the VRA
abrogates state sovereign immunity, the majority
finds that Section 2 and Section 3 when “read
together” make it clear that Congress intended to
“permit ‘aggrieved person[s]’ to bring proceedings
against ‘any State or political subdivision.’” See id. at
9 (alterations in original). But neither Section 2 or
Section 3 on their own, nor combined, is unmistakably
clear in its language that Congress intended to
abrogate States’ sovereign immunity. Because the
majority also turns to Section 3 of the VRA, so do I.5
Mail further illustrates that Congress knows how to abrogate
state sovereign immunity expressly.
5 In its discussion of Section 3, the majority states that
“private parties have sued States and state officials under § 2 of
the VRA for decades,” and cites two cases—Chisom v. Roemer,

30a
Section 3 provides as follows:
(a) Authorization by court for
appointment of Federal observers
Whenever the Attorney General or an
aggrieved person institutes a proceeding
under any statute to enforce the voting
guarantees of the fourteenth or fifteenth
amendment in any State or political
subdivision the court shall authorize the
appointment of Federal observers . . . to
serve for such period of time and for such
political subdivisions as the court shall
501 U.S. 380 (1991), and Ala. Legislative Black Caucus v.
Alabama, 135 S. Ct. 1257 (2015)—to support its statement. See
Maj. Op. at 10. Both cases are inapposite as state sovereign
immunity was not at issue.
Chisom involved black registered voters in Louisiana who
filed suit under Section 2 of the VRA to challenge Louisiana’s
method of electing State Supreme Court justices. 501 U.S. at
384. Notably, the Chisom plaintiffs sued the Governor of
Louisiana and other state officials, but the State of Louisiana
was not a party to the case. And, although the State of Alabama
was a defendant in Alabama Legislative Black Caucus, state
sovereign immunity was not at issue in that case. See Ala.
Legislative Black Caucus, 135 S. Ct. 1257.
In short, Chisom involved Section 2 but not the State as a
defendant, while Alabama Legislative Black Caucus involved the
State as a defendant but did not consider abrogation of state
sovereign immunity. See Wis. Dep’t of Corr. v. Schacht, 524 U.S.
381, 389 (1998) (“[T]he Eleventh Amendment grants the State a
legal power to assert a sovereign immunity defense should it
choose to do so. The State can [choose to] waive the defense. Nor
need a court raise the defect on its own. Unless the State raises
the matter, a court can ignore it.” (internal citations omitted)).

31a
determine is appropriate to enforce the
voting guarantees of the fourteenth or
fifteenth amendment (1) as part of any
interlocutory order if the court
determines that the appointment of such
observers is necessary to enforce such
voting guarantees or (2) as part of any
final judgment if the court finds that
violations of the fourteenth or fifteenth
amendment justifying equitable relief
have occurred in such State or
subdivision: Provided, That the court
need not authorize the appointment of
observers if any incidents of denial or
abridgement of the right to vote on
account of race or color, or in
contravention of the voting guarantees
set forth in section 10303(f)(2) of this
title (1) have been few in number and
have been promptly and effectively
corrected by State or local action, (2) the
continuing effect of such incidents has
been eliminated, and (3) there is no
reasonable
probability
of
their
recurrence in the future.
(b) Suspension of use of tests and
devices which deny or abridge the
right to vote
If in a proceeding instituted by the
Attorney General or an aggrieved person
under any statute to enforce the voting

32a
guarantees of the fourteenth or fifteenth
amendment in any State or political
subdivision the court finds that a test or
device has been used for the purpose or
with the effect of denying or abridging
the right of any citizen of the United
States to vote on account of race or color,
or in contravention of the voting
guarantees set forth in section
10303(f)(2) of this title, it shall suspend
the use of tests and devices in such State
or political subdivisions as the court
shall determine is appropriate and for
such period as it deems necessary.
(c) Retention of jurisdiction to
prevent commencement of new
devices to deny or abridge the right
to vote
If in any proceeding instituted by the
Attorney General or an aggrieved person
under any statute to enforce the voting
guarantees of the fourteenth or fifteenth
amendment in any State or political
subdivision the court finds that
violations of the fourteenth or fifteenth
amendment justifying equitable relief
have occurred within the territory of
such State or political subdivision, the
court, in addition to such relief as it may
grant, shall retain jurisdiction for such
period as it may deem appropriate and

33a
during
such
period
no
voting
qualification or prerequisite to voting or
standard, practice, or procedure with
respect to voting different from that in
force or effect at the time the proceeding
was commenced shall be enforced unless
and until the court finds that such
qualification, prerequisite, standard,
practice, or procedure does not have the
purpose and will not have the effect of
denying or abridging the right to vote on
account of race or color, or in
contravention of the voting guarantees
set forth in section 10303(f)(2) of this
title: Provided, That such qualification,
prerequisite, standard, practice, or
procedure may be enforced if the
qualification, prerequisite, standard,
practice, or procedure has been
submitted by the chief legal officer or
other appropriate official of such State
or subdivision to the Attorney General
and the Attorney General has not
interposed an objection within sixty days
after such submission, except that
neither the court’s finding nor the
Attorney General’s failure to object shall
bar a subsequent action to enjoin
enforcement of such qualification,
prerequisite, standard, practice, or
procedure.
52 U.S.C. § 10302 (a)–(c) (emphasis added).

34a
The text of Section 3 contemplates lawsuits by the
U.S. Attorney General. And when Sections 2 or 3 are
violated, the U.S. Attorney General is expressly
empowered to “institute for the United States, or in
the name of the United States, an action” against the
State under Section 12. 52 U.S.C. § 10308(d).6
Additionally, section 3 also permits “an aggrieved
person . . . to enforce the voting guarantees of the
fourteenth or fifteenth amendment in any State or
political subdivision.” But statutory authority for
“aggrieved persons” to sue in federal court generally
does not demonstrate that such “aggrieved persons”
can sue States in federal court. Dellmuth tells us that
similar “aggrieved party” language is too general:
Finally, [the statutory provision that is]
the centerpiece of the Court of Appeals’
textual analysis, provides judicial
review for aggrieved parties, but in no
way intimates that the States’ sovereign
immunity is abrogated. As we made
plain in Atascadero: “A general
authorization for suit in federal court is
not the kind of unequivocal statutory

6 “In ratifying the Constitution, the States consented to suits
brought by other States or by the Federal Government.” Alden
v. Maine, 527 U.S. 706, 755 (1999) (citation omitted). But such
suits are qualitatively different than suits brought by private
plaintiffs and, in fact, “the fear of private suits against
nonconsenting States was the central reason given by the
Founders who chose to preserve the States’ sovereign
immunity.” Id. at 756 (emphasis added).

35a
language sufficient to abrogate the
Eleventh Amendment.”
Dellmuth, 491 U.S. at 231 (citing Atascadero, 473 U.S.
at 246). Consequently, Section 3’s “aggrieved person”
language is insufficient evidence that Congress
intended to exercise its powers of abrogation.7
Further, Section 3 solely provides certain actions
that courts of competent jurisdiction must take once
proceedings have been initiated “in any State or
political subdivision.” It does not authorize
proceedings “against” a State or political subdivision.
Compare In, WEBSTER’S THIRD NEW INTERNATIONAL
ENGLISH DICTIONARY, THE UNABRIDGED (1961) (“that
is located inside or within”), with Against, id. (“in
opposition or hostility to”).8
The majority tries to distinguish the “aggrieved party”
statutory language at issue in Dellmuth with Section 3’s
“aggrieved person” language by noting that former was merely
an enforcement provision while the latter (when combined with
Section 2) is an enforcement provision plus a restriction on state
behavior. But this is a distinction without a difference; three
uses of vague language in Section 3 do not combine to provide
unmistakably clear evidence of Congress’s intent to abrogate
state sovereign immunity.
7

8
As we explained above, supra n. 3, in both Kimel and Hibbs
the provisions in the ADEA and FMLA which abrogated States’
sovereign immunity provided for suits against the States. Kimel,
528 U.S. at 73–74 (finding abrogation when the ADEA
authorized “employees to maintain actions for backpay ‘against
any employer (including a public agency) in any Federal or State
court of competent jurisdiction . . . .’”) (emphasis added); Hibbs,
538 U.S. at 726 (finding abrogation when the FMLA “enable[d]
employees to seek damages ‘against any employer (including a

36a
The majority also notes that “both the Fifth and
Sixth Circuits—the only other circuits that have
considered this issue—held that Congress validly
abrogated state sovereignty in the VRA.” I find
neither decision persuasive. In Mixon v. Ohio, 193
F.3d 389 (6th Cir. 1999), the Sixth Circuit reached a
conclusion on this issue without providing much
analysis:
With respect to whether Congress
intended to abrogate the States’
sovereign immunity under the Voting
Rights Act, we believe the language and
purpose of the statute indicate an
affirmative response. The language of
Section 2 of the Act, 42 U.S.C. § 1973,
specifically prohibits “any State or
political
subdivision”
from
discriminating against voters on the
basis of race.
Id. at 398. The Fifth Circuit then embraced the Sixth
Circuit’s decision without further analysis, holding
that “[t]he VRA, which Congress passed pursuant to
its Fifteenth Amendment enforcement power, validly
abrogated state sovereign immunity,” and included a
footnote citing Mixon. OCA-Greater Houston v. Texas,
867 F.3d 604, 614 (5th Cir. 2017). While the Mixon
court accurately quoted the statute when it says that
public agency) in any Federal or State court of competent
jurisdiction,’”) (emphasis added).

37a
“[t]he language of Section 2 . . . specifically prohibits
‘any
State
or
political
subdivision’
from
discriminating against voters on the basis of race,”
id., nothing in those five words—“any State or
political subdivision”—abrogates state sovereign
immunity such that private individuals can sue the
State in federal court.
It is difficult to overstate the enormously
important role that the abrogation doctrine plays in
our federal system. “The generation that designed
and adopted our federal system considered immunity
from private suits central to sovereign dignity.” Alden
v. Maine, 527 U.S. 706, 715 (1999); Atascadero, 473
U.S. at 242 (“The ‘constitutionally mandated balance
of power’ between the States and the Federal
Government was adopted by the Framers to ensure
the protection of ‘our fundamental liberties.’” (quoting
Garcia v. San Antonio Metro. Transit Auth., 469 U.S.
528, 572 (1985) (Powell, J., dissenting))); see also
Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261,
268 (1997) (explaining that immunity is designed to
protect “the dignity and respect afforded a State”). In
its decision today, the majority erodes this
constitutional principle by effectively dispensing with
the express abrogation test required by the Supreme
Court and replacing it with something novel and
without foreseeable limitations: Congress prohibits
state conduct, ergo abrogation. For the reasons set
forth herein, I respectfully dissent. I would reverse
the district court’s order and remand with
instructions to dismiss the State of Alabama from this
suit.

38a
Appendix C
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
ALABAMA STATE
CONFERENCE
OF THE NAACP, et al.,
Plaintiffs,
v.
STATE OF ALABAMA,
et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CASE NO.
2:16-CV-731-WKW
[WO]

MEMORANDUM OPINION AND ORDER
I. INTRODUCTION & FACTUAL
BACKGROUND
The state of Alabama selects appellate judges
using at-large elections. This means that every
Alabamian eligible to vote can do so with respect to
every seat on the state appellate courts, regardless of
residence, as opposed to having their votes limited by
geography—as is the case, for example, in the state’s
legislative elections. In Alabama, African-American
voters make up about 26% of the population, yet they
rarely are elected to any of the 19 Alabama appellate
court seats. According to Plaintiffs’ complaint, only
two African-American candidates ever have won an
at-large election in the state of Alabama, and both
were first appointed by the Governor. No AfricanAmerican candidate has won an at-large election

39a
without a preceding gubernatorial appointment. (Doc.
# 1, at 7.)
Plaintiffs, the Alabama State Conference of the
National Association for the Advancement of Colored
People (“NAACP”) and four black Alabama voters,
claim this election practice unfairly dilutes the black
vote, which has the effect of denying AfricanAmerican voters an equal opportunity to participate
in the political process, thereby violating Section 2 of
the Voting Rights Act (“VRA”), 52 U.S.C. § 10301
(“Section 2”). They bring this claim for declaratory
and injunctive relief, asking the court to strike down
Alabama’s at-large election system for appellate
judges and order the state to implement a new
election method consisting of single-member districts.
Defendants, the State of Alabama and the Alabama
Secretary of State John Merrill (in his official
capacity), moved to dismiss the complaint under
Federal Rule of Civil Procedure 12(b)(6) for failure to
state a claim upon which relief can be granted. (Doc.
# 17.) For the reasons set forth below, the motion is
due to be denied.
II. JURISDICTION & VENUE
The court has subject-matter jurisdiction under 28
U.S.C. § 1331 because this action is brought under the
VRA. The parties do not contest personal jurisdiction
or venue.
III. STANDARD OF REVIEW
To survive a motion to dismiss under Rule 12(b)(6),
a complaint must include “enough facts to state a
claim to relief that is plausible on its face.” Bell Atl.

40a
Corp. v. Twombly, 550 U.S. 544, 570 (2007). A “claim
has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). While the standard does not require
“detailed factual allegations,” a complaint will not
survive by tendering “naked assertion[s] devoid of
further factual enhancement” or “[t]hreadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements.” Id. (quoting
Twombly, 550 U.S. at 555) (quotation marks omitted).
“When there are well-pleaded factual allegations, a
court should assume their veracity and then
determine whether they plausibly give rise to an
entitlement to relief.” Id. at 679.
IV. DISCUSSION
Section 2 of the VRA “outlaws election practices
that result in racial discrimination.”1 Nipper v. Smith,
39 F.3d 1494, 1509–10 (11th Cir. 1994). One way an
election practice may violate Section 2 is by diluting
the vote of minority groups. See Thornburg v. Gingles,
478 U.S. 30, 48–51 (1986) (discussing at length
Section 2 claims based on vote dilution); see also Allen
v. State Bd. of Elections, 393 U.S. 544, 569 (1969)
(“The right to vote can be affected by a dilution of
1 The statute prohibits the imposition of a “voting
qualification or prerequisite to voting or standard, practice or
procedure . . . which results in a denial or abridgement of the
right of any citizen of the United States to vote on account of his
race or color.” 52 U.S.C. § 10301(a).

41a
voting power as well as by an absolute prohibition on
casting a ballot.”). State judicial elections fall within
the ambit of Section 2. Chisom v. Roemer, 501 U.S.
380, 404 (1991).
To establish a vote dilution claim under Section 2,
plaintiffs challenging an at-large election system on
behalf of a protected class of citizens must show that
(1) the minority group “is sufficiently large and
geographically compact to constitute a majority in a
single-member district,” (2) the minority group is
“politically cohesive,” and (3) the majority group
“votes sufficiently as a bloc to enable it . . . usually to
defeat the minority’s preferred candidate.” Gingles,
478 U.S. at 49–51. In the Eleventh Circuit,
satisfaction of the first factor also requires showing
“the existence of a proper remedy.” Davis v. Chiles,
139 F.3d 1414, 1419 (11th Cir. 1998) (noting in
footnote 14 that “[o]ur en banc court established this
principle as part of our Section Two jurisprudence in
our interpretation of the first Gingles factor in
Nipper”); see Nipper, 39 F.3d at 1530–31 (holding that
the first Gingles factor “dictates that the issue of
remedy is part of the plaintiff’s prima facie case in
section 2 vote dilution cases”).
The Gingles factors, however, represent only the
preconditions for demonstrating vote dilution—they
are “necessary, but not always sufficient, to establish
a claim for relief.” Nipper, 39 F.3d at 1512. The other
half of the analysis is heavily dependent on the facts
of the case. See Johnson v. De Grandy, 512 U.S. 997,
1020–21 (1994) (“No single statistic provides courts

42a
with a shortcut to determine whether [an election
structure] unlawfully dilutes minority voting
strength.”); Nipper, 39 F.3d at 1498 (declaring that
Section 2 vote dilution cases “are inherently factintensive”); id. at 1527 (“Courts evaluating vote
dilution claims . . . must consider all relevant
evidence.”). Once the factors are met, Section 2
demands the court inquire whether, “under the
totality of the circumstances,” the members of the
minority group “possess the same opportunities to
participate in the political process and elect
representatives of their choice enjoyed by other
voters.”2 Id. At 1512 (quoting League of United Latin
Am. Citizens, Council No. 4434 v. Clements, 999 F.2d
831, 849 (5th Cir. 1993)); see also Chisom, 501 U.S. at
399 (1991) (rejecting the argument that the word
“representative” in Section 2 excluded elected judges).
Such an inquiry necessitates a “comprehensive, not

2 Section 2(b), 52 U.S.C. § 10301(b), in full, provides:
A violation of [Section 2(a)] is established if, based on the totality
of circumstances, it is shown that the political processes leading
to nomination or election in the State or political subdivision are
not equally open to participation by members of a class of citizens
protected by subsection (a) in that its members have less
opportunity than other members of the electorate to participate
in the political process and to elect representatives of their
choice. The extent to which members of a protected class have
been elected to office in the State or political subdivision is one
circumstance which may be considered: Provided, That nothing
in this section establishes a right to have members of a protected
class elected in numbers equal to their proportion in the
population.

43a
limited, canvassing of relevant facts.” Johnson, 512
U.S. at 1011.
Defendants’ motion to dismiss attacks Plaintiffs’
Section 2 claim on three fronts. First, Defendants
argue Plaintiffs have failed to suggest a proper
remedy for the alleged vote dilution. In so doing, they
skip over the traditional Gingles factors and go
straight to this circuit’s remedy requirement,
claiming that prior Eleventh Circuit case law
forecloses subdistricting as a possible solution.
Second, Defendants maintain that the totality of the
circumstances approach set forth in Gingles compels
this court to hold that the State’s interest in
maintaining its current electoral system outweighs
whatever vote dilution Plaintiffs might prove. Third,
Defendants contend that, even if Plaintiffs put forth a
prima facie case of Section 2 vote dilution, their lack
of standing and the state’s sovereign immunity bar
Plaintiffs’ claims. The court addresses each of these
arguments in turn.
A. Remedy
1. Plaintiffs must allege a facially plausible
remedy.
Plaintiffs protest that at this stage they need only
establish the three traditional Gingles factors,
without any remedy averment. (Doc. # 34, at 7.) This
is perhaps the case in other circuits, but not here. The
Eleventh Circuit in Nipper explicitly held that “the
issue of remedy is part of the plaintiff’s prima facie
case in section 2 vote dilution cases,” 39 F.3d at 1530–
31, and in the process of coming to that decision, it

44a
repeatedly emphasized the “threshold nature of the
Gingles factors,” id. at 1512 (referring eleven times to
the “Gingles threshold factors”). It is impossible to
reconcile this language with Plaintiffs’ statement of
the law, which would have the court ignore the
remedy requirement until some later procedural
moment. In defending a Section 2 claim against a
motion to dismiss, Plaintiffs must allege a plausible
remedy. However, the burden at this stage is far from
onerous. In alleging a remedy capable of surviving a
motion to dismiss, as with any other sort of allegation
at this stage, Plaintiffs need only demonstrate facial
plausibility. Iqbal, 556 U.S. at 678.
2. Subdistricting is a facially plausible
remedy at this stage.
Defendants contend Plaintiffs have failed to plead
a facially plausible remedy because binding Eleventh
Circuit authority forecloses their suggested remedy—
subdistricting—as a viable option. They point to four
cases for this proposition: Nipper v. Smith, 39 F.3d
1494 (11th Cir. 1994); Southern Christian Leadership
Conference of Alabama v. Sessions, 56 F.3d 1281 (11th
Cir. 1995) (“SCLC”); White v. Alabama, 74 F.3d 1058
(11th Cir. 1996); and Davis v. Chiles, 139 F.3d 1414
(11th Cir. 1998). Although these cases highlighted the
flaws of subdistricting as a potential judicial remedy,
three (Nipper, SCLC, and Davis) do so exclusively in
cases involving the election of trial judges, and the
other (White) did not reach the issue.3
3 The White court, in dicta, does refer to single-member
subdistricting as “the traditional vote dilution remedy,” 74 F.3d

45a
No Eleventh Circuit case has yet rejected
subdistricting as a remedy for vote dilution in
appellate judicial elections. This distinction may turn
out to be immaterial in the end, and it may be that
the court determines down the road that
subdistricting is not a viable remedy in appellate
judicial elections, as the Eleventh Circuit has decided
in the election of Alabama’s trial judges. But at this
pre-discovery
stage
of
the
litigation,
the
trial/appellate distinction appears capable of
changing the outcome of the case, and it therefore
counsels against a potentially premature dismissal.
The cases bear out this conclusion. Nipper and SCLC
involved challenges to the at-large judicial election
systems in Florida and Alabama, respectively. In both
cases, the en banc Eleventh Circuit rejected
subdistricting as a remedy for Section 2 vote dilution.
However, the reasoning in Nipper, on which the
SCLC court heavily relies, appears to limit the
holding (at least implicitly) to cases challenging the
election of trial judges. For one, Nipper included a
footnote clarifying that the issue in that case
“concern[ed] the election of trial court judges, not the
members of a multimember appellate court,” and
added the caveat that “there might be more to be said
for some form of ‘representation’ on a collegial court
(like a state supreme court) than on a single-judge
trial court.” Nipper, 39 F.3d at 1535 n.78 (mentioning
at 1066, but it does so in a passing reference accompanied by no
analysis or explanation. Though worth mentioning, the phrase
is afforded little weight in the court’s analysis here.

46a
also the relevance of “bring[ing] diverse perspectives
to the court” in the appellate context).4 This language
demonstrates, at the very least, that the Nipper court
did not take it as a given that challenges to appellate
court elections would be in all regards the same as
challenges to trial court elections.
The rest of the Nipper opinion is consistent with
that reading. The reasons for which the Eleventh
Circuit rejected subdistricting in the context of a trial
court election might not apply with the same force to
appellate court elections. For example, although the
court took issue with the way subdistricting would
further dilute the minority influence in all but the
contrived minority districts, it also recognized that
“the concern is more pronounced here [than in the
elections of collegial bodies] because trial court judges
act alone in exercising their power.” Id. at 1543. The
court reasoned that subdistricting would “eliminate
the minority voters’ electoral influence over” trial
judges outside their subdistrict, while “[i]n the case of
collegial bodies [with subdistrict elections], all
4 That footnote elaborates on how the differences between
the elections of legislators and trial judges justify a different
Section 2 analysis. Focusing on whether the “circumstantial
evidence factors referred to in Gingles” are appropriate in the
judicial election context, the court in dicta notes the analytical
differences between trial and appellate courts. Nipper, 39 F.3d
at 1535 n.78. Although the election of appellate judges was not
before the court in Nipper, the logic of the decision (including the
footnote highlighted here) supports the conclusion that other
considerations could prevail in a challenge involving appellate
judicial elections—or, at the very least, that these considerations
deserve a closer look on a developed factual record.

47a
citizens continue to elect at least one person involved
in the decisionmaking process and are, therefore,
guaranteed a voice in most decisions.” Id. at 1543–44.
Although the Eleventh Circuit specifically
referred to “collegial bodies” in the “legislative
context,” id. at 1543, it noted elsewhere in the opinion
that an appellate court comprises individual judges
who “decide[ ] cases as a group,” id. at 1535 n.78, as
opposed to trial judges who “conduct their
decisionmaking process independently,” id. at 1544.
This distinction should not be ignored. Nipper’s
language acknowledges the possibility that, for
purposes of fashioning a Section 2 remedy, Alabama
appellate courts should be viewed as more akin to
legislatures than to Alabama trial courts. But the
merits of that analogy and its potential effects on the
court’s remedy considerations are issues that would
benefit from full briefing on a developed factual
record. Nipper and SCLC both were decided after
bench trials, not on the allegations at the Rule
12(b)(6) juncture. Thus, far from being perfect
analogues to the case at bar, Nipper and SCLC
together counsel against rote application of their
holdings, first, by recognizing that trial and appellate
judicial elections may not be analytically identical,
and second, by demonstrating the amount of factual
detail required to make Section 2 determinations.
White and Davis are equally dissimilar. Although
White involved a challenge to Alabama’s appellate
judicial elections, the opinion is little help here
because the Eleventh Circuit in White did not analyze

48a
whether subdistricting could be ordered as a remedy
for a Section 2 violation. White considered and
rejected a different remedy altogether.5 Defendants
argue that White illustrates the Eleventh Circuit’s
hesitancy
to
sanction
any
court-imposed
restructuring of a state judicial election system, and
thus weighs in favor of dismissal here. (Doc. # 17, at
26.) However, Defendants’ conclusion does not follow
the premise. It may be that White, to some degree,
forecasts what the Circuit might say were it
presented with the question now before this court—
namely, whether subdistricting is a viable remedy for
Section 2 vote dilution in the context of appellate
judicial elections. But the judicial prerogative
involves applying precedent, not making predictions.
Because the Eleventh Circuit has yet to address the
question directly, this court is left to travel on reason
and other more distant precedent. Moreover, the
5 The district court found that the settlement agreement
under scrutiny in White upheld the state’s “interest in ensuring
that voters have the opportunity to vote for all appellate judges”
better than single-member districts would. White v. State of
Alabama, 867 F. Supp. 1519, 1546 (M.D. Ala. 1994), vacated, 74
F.3d 1058 (11th Cir. 1996). Because the district court found that
the parties settlement agreement embodied a remedy that was
“at least as good for African-Americans as any alternative
remedy,” id. at 1535, it did not have to decide whether singlemember districts would have been an appropriate Section 2
remedy in the case before it, see id. at 1536. On appeal, the
Eleventh Circuit noted the arguments for a remedy replacing the
at-large election system with single-member districts, see, e.g.,
White, 74 F.3d at 1065, but it rejected the settlement
agreement’s remedy on grounds unrelated to those arguments.

49a
stated reason for which the proposed remedy in White
failed was because “federal courts may not mandate
as a section 2 remedy that a state or political
subdivision alter the size of its elected bodies.” 74 F.3d
at 1072 (quoting Nipper, 39 F.3d at 1532).
Subdistricting does not necessarily involve an
alteration of the size of the elected body, and thus
White does not squarely prohibit it. The court declines
to extend White’s holding to prohibit remedies that it
did not purport to preclude. Davis also did not change
the Section 2 landscape in any significant way. As in
Nipper and SCLC, after a bench trial, the court in
Davis considered challenges to the at-large elections
of trial judges, this time in several Florida districts
that had gone unchallenged in Nipper. Despite
expressing qualms about the Circuit’s Section 2
precedent, the panel in Davis faithfully applied
Nipper and SCLC, recognizing that Davis presented
the same question decided in those cases and holding
that subdistricting is not a viable remedy in Section 2
challenges to trial court elections.6 Davis, 139 F.3d at
6 As Defendants point out (Doc. # 17, at 27), the court
expressed its disagreement with the en banc decision in Nipper,
going so far as to opine that “in this circuit, Section Two of the
Voting Rights Act frankly cannot be said to apply, in any
meaningful way, to at-large judicial elections.” Davis, 139 F.3d
at 1424. This is dicta, and it represents the opinion of a panel
that appears to be begrudgingly applying law with which it
disagrees. There is little doubt that the en banc court that voted
for Nipper would disagree with the Davis panel’s
characterization of that decision, which includes the remark that
Nipper “appears to conflict with the Supreme Court’s initial
pronouncements on this subject in Chisom and Houston

50a
1423. The court once again did not consider whether
the rule applies in the case of appellate judicial
elections.
Of course, it would be remiss to pretend Nipper
and its offspring contain no countervailing
considerations whatsoever—they contain several. To
the extent subdistricting would “foster the idea that
judges should be responsive to constituents” and limit
the “pool of candidates” who might consider running
for judicial office, Nipper, 39 F.3d at 1544–46, its
effect on appellate court elections would not differ
much from its effect on trial court elections.
Defendants list several additional ways in which
subdistricting for trial and appellate judicial elections
would undermine similar state interests. (Doc. # 17,
at 31–40 (respect for a state’s constitutional model;
allowing voters to have a voice on the entire court;
preventing the marginalization of minority voters;
judicial independence; ensuring a large pool of
Lawyers.” See Davis, 139 F.3d at 1424. Thus, when Defendants
use Davis’s sweeping language to argue that subdistricting can
never be appropriate in a challenge to any at-large judicial
election (Doc. # 17, at 27–28), the court reads it with a grain of
salt. In the broader precedential context, and with the
knowledge that the Davis panel expressly disagreed with
controlling law on this topic, it is difficult to reach Defendants’
conclusion. Davis involved a straightforward application of
existing law, with no factual variation. It did not consider
whether subdistricting could be used to remedy vote dilution in
an appellate judicial elections case, and Defendants point to no
other case that does. Extrapolating to reach the conclusion for
which Defendants argue would be inconsistent with binding
authority on this topic.

51a
candidates).) In this sense, the cases on trial court
elections are somewhat comparable. But, in view of
the differences between trial and appellate courts, as
recounted above, Defendants have not shown that
these similarities justify the far-reaching conclusion
that subdistricting can never be a viable remedy in a
Section 2 case involving judicial elections. Indeed, no
case ever has held as much. Defendants’ argument
also reaffirms that the question of an appropriate
remedy requires a fact-intensive balancing, which is
not generally suitable on a motion to dismiss. See
Davis, 139 F.3d at 1419–20 (“In assessing a plaintiff’s
proposed remedy, a court must look to the totality of
the circumstances, weighing both the state’s interest
in maintaining its election system and the plaintiff’s
interest in the adoption of his suggested remedial
plan.”).
Defendants may very well prove that
subdistricting cannot work in this context. But
dismissing Plaintiffs’ case, without giving them a
chance to conduct discovery and adduce evidence,
would require the authority of nothing less than a
spotted-dog case. Because no such case exists, the
court cannot conclude, as a matter of law, that
subdistricting never can be employed as a remedy in
a vote dilution challenge to a state system of appellate
judicial elections. By suggesting subdistricting as a
potential remedy, Plaintiffs have satisfied their
pleading burden.

52a
B. Totality of the Circumstances
Defendants next argue that the second step of the
Gingles analysis—the totality-of-the-circumstances
prong—compels dismissal. This is because “the
State’s interest in its current electoral system is so
strong, it outweighs any alleged vote dilution.” (Doc.
# 17, at 44.) Defendants appear to argue that the
degree to which Alabama’s electoral system may have
diluted the black vote is irrelevant because, no matter
how extreme the vote dilution, the interest of minority
citizens to participate in the democratic process can
never outweigh the state’s interest in maintaining the
status quo. Defendants’ argument is untenable.
First, Defendants’ interpretation of the law would
remove from the reach of Section 2 all cases of alleged
vote dilution. If the state’s interest is as strong as
Defendants suggest, then how could a Section 2
individual plaintiff ever prevail on a claim for vote
dilution? Yet, vote dilution claims have been
cognizable under Section 2 for over three decades. See
Gingles, 478 U.S. at 48–51 (discussing Section 2
claims based on vote dilution brought by black
registered voters in North Carolina); see also Allen,
393 U.S. at 569 (“The right to vote can be affected by
a dilution of voting power as well as by an absolute
prohibition on casting a ballot.”). And, at least since
Chisom, state judicial elections have been subject to
Section 2 review. 501 U.S. at 404. There is no case
suggesting that a Section 2 vote dilution claim can
never succeed in a challenge to a state judicial

53a
election at the appellate level. Holding as much would
eviscerate Section 2 in the judicial election context.
Second, the totality-of-the-circumstances analysis
requires the court to consider evidence that is not
available at this stage in the litigation. As the
Supreme Court made clear in Johnson, the inquiry
must involve a “comprehensive, not limited,
canvassing of relevant facts.” 512 U.S. at 1011. Vote
dilution cases brought under Section 2 are “inherently
fact-intensive,” Nipper, 39 F.3d at 1498, and thus
courts evaluating them “must consider all relevant
evidence,” id. at 1527. “[U]nder [Johnson], reviewing
courts are required—not just invited—to look beyond
the Gingles threshold factors when evaluating vote
dilution claims.” Id. at 1513. But in reviewing a
motion to dismiss the court can only look so far. The
parties here have conducted no discovery and
developed no significant evidentiary record. Yet,
Defendants ask for a favorable ruling based on the
“totality of the circumstances,” an impossible task. It
is no surprise that “the three cases most heavily relied
on by Defendants were decided after lengthy bench
trials and based on extensive evidentiary records.”
(Doc. # 34, at 7.) Accordingly, the motion to dismiss
cannot be granted on this ground.
C. Standing & Sovereign Immunity
1. Plaintiffs have standing to sue.
Defendants’ standing arguments are also
meritless. To establish standing, a plaintiff must
allege an actual or imminent “injury in fact” that was
caused by the conduct complained of and is likely to

54a
be “redressed by a favorable decision.” Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560–61 (1992).
Aside from recycling the remedy argument dealt with
in a prior section of this opinion, Defendants only
challenge Plaintiffs’ statement of injury.
a. Individual Plaintiffs
Defendants contend that Plaintiffs lack standing
because the Complaint fails to “identify particular
judicial candidates of their personal choice whom they
were unable to elect on account of race, or [fails to
allege] that they personally have suffered vote
dilution because the challenged courts’ members are
elected statewide.” (Doc. # 17, at 49.) But Plaintiffs
need not identify specific losing candidates in order to
have standing. See Gray v. Sanders, 372 U.S. 368, 375
(1963) (holding that “any person whose right to vote
is impaired . . . has standing to sue”); Baker v. Carr,
369 U.S. 186, 206 (1962) (holding that “voters who
allege facts showing disadvantage to themselves as
individuals have standing to sue”). And they have
already alleged a personal injury. In the Complaint,
Plaintiffs allege (1) that they are residents of Perry,
Jefferson, Tuscaloosa, and Lee counties (Doc. # 1, at
4), and (2) that they are registered voters and
members of a protected class whose electoral strength
has been diluted by Alabama’s structure of appellate
judicial elections (Doc. # 1, at 4, 13–14). These
allegations are enough to establish standing and
proceed past the motion to dismiss stage. See Lujan,
504 U.S. at 561 (“At the pleading stage, general
factual allegations of injury resulting from the

55a
defendant’s conduct may suffice.”); see also Common
Cause/Georgia v. Billups, 554 F.3d 1340, 1351 (11th
Cir. 2009) (holding that even a “small injury”
hindering a person’s ability to vote “is sufficient to
confer standing”).
b. Alabama NAACP
Defendants also argue that the Alabama NAACP
lacks organizational standing. An organization may
sue on behalf of its members if: (1) they “would
otherwise have standing to sue in their own right,” (2)
“the interests at stake are germane to the
organization’s purpose,” and (3) “neither the claim
asserted nor the relief requested requires the
participation of individual members in the lawsuit.”
Friends of the Earth, Inc. v. Laidlaw Environmental
Servs. (TOC), Inc., 528 U.S. 167, 181 (2000).
Defendants, rather than arguing the point, assert
that “[t]he Complaint is simply silent on these issues.”
Defendants’ assertion is a head-scratcher. As
demonstrated in the previous section, the individual
plaintiffs have “standing to sue in their own right”—
thus, the first prong is satisfied. As for the second
prong, the Complaint goes into some detail about how
the interests of the Alabama NAACP involve working
“to ensure the political, educational, social, and
economic equality of African Americans,” “to
eliminate racial discrimination in the democratic
process,” and “to enforce federal laws and
constitutional provisions securing voting rights.”
(Doc. # 1, at 3.) It even describes specific ways in
which the Alabama NAACP encourages African

56a
Americans to get out to vote. (Doc. # 1, at 3.)
Accordingly, the court finds that “the interests at
stake are germane to the organization’s purpose,” and
thus the second prong is satisfied. Finally, the claim
here does not require “the participation of individual
members in the lawsuit” because the claim is for
“prospective or injunctive relief.” See United Food &
Commercial Workers Union Local 751 v. Brown
Group, Inc., 517 U.S. 544, 546 (1996) (holding that
“‘individual participation’ is not normally necessary
when an association seeks prospective or injunctive
relief for its members”).
2. The State of Alabama is not immune.
The State of Alabama argues that the Eleventh
Amendment immunizes it from suit by private
plaintiffs under the VRA.7 (Doc. # 17, at 50–51.)
Generally speaking, the Eleventh Amendment
prevents nonconsenting states and state actors from
being sued by private individuals in federal court. See
McLendon v. Ga. Dep’t of Cmty. Health, 261 F.3d
1252, 1256 (11th Cir. 2001). However, even where a
state has not waived its immunity, “Congress can
abrogate [it] by enacting legislation to enforce the
substantive
provisions
of
the
Fourteenth
7 There is no question that the Attorney General may sue on
behalf of voters under the enforcement provision of the VRA, and
it is clear that other state defendants may be sued for
prospective, injunctive relief under Ex Parte Young, 209 U.S. 123
(1908). Because the Secretary of State has been named, the suit
will proceed regardless of the outcome of this discussion. The sole
question here is whether the State of Alabama may be sued by a
private litigant under Section 2 of the VRA.

57a
Amendment.” Id. at 1298. The question here,
therefore, is whether Section 2 of the VRA abrogates
Alabama’s sovereign immunity in actions brought by
private plaintiffs.8
Congress is said to have abrogated the sovereign
immunity of a state if it has (1) “unequivocally
expresse[d] its intent” to do so, and (2) has acted
“pursuant to a valid exercise of power.” Green v.
Mansour, 474 U.S. 64, 68 (1985). Dealing first with
the second prong, courts have long recognized Section
2 as a valid exercise of Congress’s power to enforce the
Fourteenth and Fifteenth Amendments. See City of
Boerne v. Flores, 521 U.S. 507, 518 (1997) (“We have
also concluded that other measures protecting voting
rights are within Congress’ power to enforce the
Fourteenth and Fifteenth Amendments, despite the
burdens those measures placed on the States.”) (citing
South Carolina v. Katzenbach, 383 U.S. 301 (1966),
which upheld several provisions of the VRA); United
States v. Board of Comm’rs of Sheffield, Ala., 435 U.S.
110, 126–27 (1978) (“The [VRA], of course, is designed
8 An assertion of Eleventh Amendment immunity challenges
a court’s subject-matter jurisdiction. A challenge to subjectmatter jurisdiction implicates Rule 12(b)(1), not Rule 12(b)(6), of
the Federal Rules of Civil Procedure. See McElmurray v. Consol.
Gov’t of Augusta–Richmond Cty., 501 F.3d 1244, 1251 (11th Cir.
2007). On a Rule 12(b)(1) facial attack, the court evaluates
whether the plaintiff “has sufficiently alleged a basis of subject
matter jurisdiction” in the complaint and employs standards
similar to those governing Rule 12(b)(6) review. Houston v.
Marod Supermarkets, Inc., 733 F.3d 1323, 1335–36 (11th Cir.
2013).

58a
to implement the Fifteenth Amendment and, in some
respects, the Fourteenth Amendment.”); United
States v. Marengo Cty. Comm’n, 731 F.2d 1546, 1556
(11th Cir. 1984) (“Congress [in enacting Section 2] . . .
relied not on any independent power to interpret the
Constitution but rather on congressional power to
enforce the Civil War Amendments.”). Thus, the only
remaining issue is whether Congress’s intent to
abrogate state sovereign immunity unequivocally was
expressed in the VRA.
The standard for finding a valid abrogation is
“stringent.” Seminole Tribe of Fla. v. Florida, 517 U.S.
44, 56 (1996). But here, it is difficult to conceive of any
reasonable interpretation of Section 2 that does not
involve abrogation of the state’s immunity. The
statute explicitly forbids “any State” from imposing a
“voting qualification or prerequisite,” or a “standard,
practice or procedure,” that “results in a denial or
abridgement of the right of any citizen of the United
States to vote” because of their “race or color.” 52
U.S.C. § 10301 (emphasis added). Such a restriction
on state action would be toothless without the right to
sue for a remedy. And the right of private litigants to
bring such an action under Section 2 “has been clearly
intended by Congress since 1965.” See Morse v.
Republican Party, 517 U.S. 186, 240 (1996) (Breyer,
J., concurring) (quoting S. REP. NO. 97-417, at 30
(1982)). With two principles in mind—first, that the
statute purports to limit the conduct of states and,
second, that private litigants have the right to sue for
a remedy—one wonders how Section 2 plausibly could

59a
function if private litigants were barred from suing
states.9

A related question is whether private litigants may sue at
all. One argument, which Defendants briefly raise (Doc. # 17, at
51–52), is that the statute could function just fine if its
enforcement were restricted to actions brought by the Attorney
General, which are expressly authorized in the VRA’s
enforcement provision, 52 U.S.C. § 10308(d). See, e.g., Allen v.
State Bd. of Elections, 393 U.S. 544, 556 n.20 (1969) (“Appellees
argue that [§] 5 only conferred a new ‘remedy’ on the Attorney
General of the United States.”); Gray v. Main, 291 F. Supp. 998,
1000 (M.D. Ala. 1966) (“The argument of the defendants that
actions by private individuals are not authorized . . . is not
persuasive.”). But in Allen the Supreme Court explained the
error in this rationale:
9

The [VRA] was drafted to make the guarantees
of the Fifteenth Amendment finally a reality for
all citizens. Congress realized that existing
remedies were inadequate to accomplish this
purpose and drafted an unusual, and in some
aspects a severe, procedure for insuring that
States would not discriminate on the basis of
race in the enforcement of their voting laws.
The achievement of the Act’s laudable goal could
be severely hampered, however, if each citizen
were required to depend solely on litigation
instituted at the discretion of the Attorney
General. For example, the provisions of the Act
extend to States and the subdivisions thereof.
The Attorney General has a limited staff and
often might be unable to uncover quickly new
regulations and enactments passed at the
varying levels of state government. It is
consistent with the broad purpose of the Act to
allow the individual citizen standing to insure

60a
It is therefore unsurprising that the only circuit to
rule on this issue directly, to the court’s knowledge,
held that Section 2 abrogates state sovereign
immunity. See Mixon v. State of Ohio, 193 F.3d 389
(6th Cir. 1999). One issue faced by the Sixth Circuit
in Mixon was that the VRA is arguably an exercise of
Congress’s authority to enforce the Fifteenth
Amendment, not the Fourteenth, which places it on
that his city or county government complies with
the [§] 5 approval requirements.
393 U.S. at 556–57 (citations and footnotes omitted); see id. at
556 n.21 (noting also that “it was the inadequacy of [private suits
under the Fifteenth Amendment] for securing the right to vote
that prompted Congress to pass the Voting Rights Act”). The
court is also aware that the Supreme Court since Allen has
tightened the standard for implying a private right of action. See
Ziglar v. Abbasi, 137 S. Ct. 1843, 1855–56 (2017) (noting after a
discussion of Allen that later “the arguments for recognizing
implied causes of action for damages began to lose their force”).
For two reasons, the court is unpersuaded that this precludes
the action brought by Plaintiffs here. First, this action is not for
damages; it is for injunctive relief. And the Ziglar court was
much more concerned with the former. See id. at 1856 (“[I]t is a
significant step under separation-of-powers principles for a court
to determine that it has the authority, under the judicial power,
to create and enforce a cause of action for damages against
federal officials in order to remedy a constitutional violation.”)
(emphasis added). And second, the Supreme Court’s hesitance in
Ziglar was against extending implied rights of action and
creating new rights, not against continuing to enforce longestablished rights of action. With no binding authority denying
a right of action under Section 2, and with the history of
aforementioned cases suggesting the opposite, the court remains
unconvinced that Ziglar’s mandate would prevent Plaintiffs in
this case from bringing suit under Section 2.

61a
considerably shakier ground in the abrogation-ofsovereign-immunity sphere.10 However, relying on
two Supreme Court decisions, City of Rome v. United
States, 446 U.S. 156 (1980), abrogated on other
grounds in Shelby Cty., Ala. v. Holder, 133 S. Ct. 2612
(2013), and City of Boerne v. Flores, 521 U.S. 507
(1997), the court held that, because the enforcement
provision of the Fifteenth Amendment is identical to
the one in the Fourteenth Amendment, “Congress
may abrogate sovereign immunity by passing
legislation under the Fifteenth Amendment.” Mixon,
193 F.3d at 399.
The Sixth Circuit’s reading of City of Rome is
persuasive. In that case, the Supreme Court held that
principles of federalism that might
otherwise be an obstacle to congressional
authority are necessarily overridden by the
power to enforce the Civil War Amendments
“by appropriate legislation.” [See, e.g., U.S.
CONST. AMEND. XIV, § 5; U.S. CONST.
AMEND. XV, § 2.] Those Amendments were
specifically designed as an expansion of
federal power and an intrusion on state
sovereignty. Applying this principle, we
hold that Congress had the authority to
10 Although it is clear that Congress can abrogate state
sovereign immunity through the enforcement provision of the
Fourteenth Amendment, the Supreme Court has never expressly
held that Congress may abrogate it through Section 2 (the
enforcement provision) of the Fifteenth Amendment, even
though the respective provisions are identically phrased.

62a
regulate state and local voting through the
provisions of the Voting Rights Act.
City of Rome, 446 U.S. at 179–80. But see Lewis v.
Bentley, No. 16cv690, 2017 WL 432464 (N.D. Ala.
2017) (finding Mixon unpersuasive), appeal docketed,
No. 17-11009 (11th Cir. March 3, 2017). Grouping
together the enforcement provisions of the
Fourteenth and Fifteenth Amendments, and calling
both “an intrusion on state sovereignty,” the Supreme
Court came just shy of expressly holding that
Congress may abrogate state sovereign immunity
through both. The Sixth Circuit took the high court at
its word, and so does this court. Thus, whether the
VRA derives its power from the Fourteenth or the
Fifteenth Amendment does not matter, because the
Supreme Court confirmed, at least implicitly,
Congress’s authority to abrogate state sovereignty “by
appropriate legislation.” This language, combined
with the foregoing discussion of Section 2, persuades
the court that states may not hide behind the
Eleventh Amendment in defending themselves in
suits by private plaintiffs for alleged violations of the
VRA. Accordingly, the State of Alabama is not
immune from this Section 2 suit.
V. CONCLUSION
Accordingly, it is ORDERED that Defendants’
Motion to Dismiss (Doc. # 17) is DENIED. It is further
ORDERED that Defendants shall file an answer to
the Complaint on or before September 14, 2017.
DONE this 31st day of August, 2017.
/s/ W. Keith Watkins
CHIEF UNITED STATES DISTRICT JUDGE

63a
Appendix D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 17-14443-CC
________________________
ALABAMA STATE CONFERENCE OF THE
NATIONAL ASSOCIATION FOR THE
ADVANCEMENT OF COLORED PEOPLE,
SHERMAN NORFLEET, CLARENCE
MUHAMMAD, CURTIS TRAVIS, JOHN HARRIS,
Plaintiffs-Appellees,
versus
STATE OF ALABAMA,
SECRETARY OF STATE FOR THE STATE OF
ALABAMA,
Defendants-Appellants.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILSON and BRANCH, Circuit Judges,
and VINSON,* District Judge.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED,
no judge in regular active service on the Court having

64a
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Rehearing En Banc
is also treated as a Petition for Rehearing before the
panel and is DENIED. (FRAP 35, IOP2)
*Honorable C. Roger Vinson, Senior United States District
Judge for the Northern District of Florida, sitting by
designation.

ORD-42

65a
Appendix E
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. CONST. amend. XI
The Judicial power of the United States shall not
be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
52 U.S.C. §10301
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure shall be
imposed or applied by any State or political
subdivision in a manner which results in a denial or
abridgement of the right of any citizen of the United
States to vote on account of race or color, or in
contravention of the guarantees set forth in section
10303(f)(2) of this title, as provided in subsection (b).
(b) A violation of subsection (a) is established if,
based on the totality of circumstances, it is shown that
the political processes leading to nomination or
election in the State or political subdivision are not
equally open to participation by members of a class of
citizens protected by subsection (a) in that its
members have less opportunity than other members
of the electorate to participate in the political process
and to elect representatives of their choice. The extent
to which members of a protected class have been
elected to office in the State or political subdivision is
one circumstance which may be considered: Provided,

66a
That nothing in this section establishes a right to
have members of a protected class elected in numbers
equal to their proportion in the population.
52 U.S.C. §10302
(a) Authorization by court for appointment
of Federal observers
Whenever the Attorney General or an aggrieved
person institutes a proceeding under any statute to
enforce the voting guarantees of the fourteenth or
fifteenth amendment in any State or political
subdivision the court shall authorize the appointment
of Federal observers by the Director of the Office of
Personnel Management in accordance with section
1973d of Title 42 to serve for such period of time and
for such political subdivisions as the court shall
determine is appropriate to enforce the voting
guarantees of the fourteenth or fifteenth amendment
(1) as part of any interlocutory order if the court
determines that the appointment of such observers is
necessary to enforce such voting guarantees or (2) as
part of any final judgment if the court finds that
violations of the fourteenth or fifteenth amendment
justifying equitable relief have occurred in such State
or subdivision: Provided, That the court need not
authorize the appointment of observers if any
incidents of denial or abridgement of the right to vote
on account of race or color, or in contravention of the
voting guarantees set forth in section 10303(f)(2) of
this title (1) have been few in number and have been
promptly and effectively corrected by State or local
action, (2) the continuing effect of such incidents has

67a
been eliminated, and (3) there is no reasonable
probability of their recurrence in the future.
(b) Suspension of use of tests and devices
which deny or abridge the right to vote
If in a proceeding instituted by the Attorney
General or an aggrieved person under any statute to
enforce the voting guarantees of the fourteenth or
fifteenth amendment in any State or political
subdivision the court finds that a test or device has
been used for the purpose or with the effect of denying
or abridging the right of any citizen of the United
States to vote on account of race or color, or in
contravention of the voting guarantees set forth in
section 10303(f)(2) of this title, it shall suspend the
use of tests and devices in such State or political
subdivisions as the court shall determine is
appropriate and for such period as it deems necessary.
(c) Retention of jurisdiction to prevent
commencement of new devices to deny or
abridge the right to vote
If in any proceeding instituted by the Attorney
General or an aggrieved person under any statute to
enforce the voting guarantees of the fourteenth or
fifteenth amendment in any State or political
subdivision the court finds that violations of the
fourteenth or fifteenth amendment justifying
equitable relief have occurred within the territory of
such State or political subdivision, the court, in
addition to such relief as it may grant, shall retain
jurisdiction for such period as it may deem
appropriate and during such period no voting
qualification or prerequisite to voting or standard,

68a
practice, or procedure with respect to voting different
from that in force or effect at the time the proceeding
was commenced shall be enforced unless and until the
court finds that such qualification, prerequisite,
standard, practice, or procedure does not have the
purpose and will not have the effect of denying or
abridging the right to vote on account of race or color,
or in contravention of the voting guarantees set forth
in section 10303(f)(2) of this title: Provided, That such
qualification, prerequisite, standard, practice, or
procedure may be enforced if the qualification,
prerequisite, standard, practice, or procedure has
been submitted by the chief legal officer or other
appropriate official of such State or subdivision to the
Attorney General and the Attorney General has not
interposed an objection within sixty days after such
submission, except that neither the court's finding nor
the Attorney General's failure to object shall bar a
subsequent action to enjoin enforcement of such
qualification, prerequisite, standard, practice, or
procedure.

